Report No. D-2010-085                   September 22, 2010




     Kuwait Contractors Working in Sensitive Positions
           Without Security Clearances or CACs
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AR                            Army Regulation
CAC                           Common Access Card
CAR                           Corrective Action Request
CSA                           Combat Support Associates
CSSC-K                        Combat Support Services Contract-Kuwait
DCMA                          Defense Contract Management Agency
OIG                           Office of Inspector General
PCO                           Procuring Contracting Officer
QAR                           Quality Assurance Representative
RICC                          Rock Island Contracting Center
SCAR                          Security Clearance Access Roster
SOW                           Statement of Work
Report No. D-2010-085 (Project No. D2009-D000AS-0266.000)                   September 22, 2010

              Results in Brief: Kuwait Contractors Working
              in Sensitive Positions Without Security
              Clearances or CACs

What We Did                                              What We Recommend
This is the first in a series of reports on the          Among other recommendations, we made the
Combat Support Services Contract-Kuwait                  following to the Commander, DCMA-Kuwait,
(CSSC-K). We reviewed the CSSC-K contract                and the Procurement Contracting Officer:
to identify potential weaknesses related to the             require quality assurance representatives to
management of the contractor’s security                        review security files and issue corrective
program and contractor employee security                       action reports,
clearances. Contractor employees in sensitive               remove contractors working in sensitive
positions without security clearances is not                   positions without security clearances or
acceptable and poses a security risk for military,             CACs,
civilian, and contractors in Kuwait. The                    implement contractual remedies to recoup
CSSC-K contract was awarded in 1999 and had                    any money paid for services not provided,
a value of more than $3.3 billion. Unless                   require the contractor to conduct quarterly
extended for a third time, the contract will end               reviews to validate the Security Clearance
September 30, 2010, but the corrective actions                 Access Roster,
identified in this report must be established and           consider debarment of the contractor,
implemented in follow-on contracts.                         verify that the human resources listings
                                                               include all employees in sensitive
What We Found                                                  positions, and
CSSC-K contractor employees worked in                       coordinate with the Kuwait bases Provost
sensitive positions without the required security              Marshall Offices to conduct a review to
clearance. Combat Support Associates (CSA),                    verify all contractor employees have a
the CSSC-K contractor, had employees in                        CAC.
sensitive positions with no record of security
clearances or without valid clearances, an               Management Comments and
incorrectly identified sensitive position, and
incomplete security files. CSA officials also
                                                         Our Response
allowed contractor employees to remain in                The Acting Executive Director, Rock Island
sensitive positions without a security clearance         Contracting Center, and Commander,
after they were informed they were in violation          DCMA-Kuwait, either agreed with the
of the contract. Lastly, the Army did not ensure         recommendations or were partially responsive.
all contractors had the common access cards              Therefore, we require additional comments.
(CACs) required for base access. This occurred           Please see the recommendations table on the
because CSA officials did not identify and track         back of this page.
all positions or obtain the required clearance for
all employees. Additionally, the Defense
Contract Management Agency (DCMA) did not
provide oversight of the contractor’s security
program in accordance with the contract or
DCMA’s Theater Quality Plan.

                                                     i
Report No. D-2010-085 (Project No. D2009-D000AS-0266.000)            September 22, 2010

Recommendations Table

         Management                     Recommendations      No Additional Comments
                                       Requiring Comment             Required
Commander, Defense Contract      2.c                        2.a and 2.b
Management Agency-Kuwait

Procuring Contracting Officer,                              1.a, 1.b, 1.c, 1.d, 1.e, 1.f,
Rock Island Contracting Center                              and 1.g


Please provide comments by October 22, 2010.




                                            ii
Table of Contents

Introduction                                                                 1

      Objectives                                                             1
      Background                                                             1
      Review of Internal Controls                                            2

Finding. Contractor Fails to Fully Implement Security Clearance Requirements 3

      DOD Personnel Security Program                                         3
      Contractor Positions Lack Security Clearances                          4
      Contractors Noncompliance with the SOW                                 9
      Contractors Accessing Bases Without Common Access Cards               11
      Conclusion                                                            12
      Management Comments and Our Response                                  13
      Recommendations, Management Comments, and Our Response                13

Appendices

      A. Scope and Methodology                                             18
            Prior Coverage                                                 19
      B. Unsolicited Management Comments and Our Response                  20

Management Comments

      Rock Island Contracting Center                                       22
      Defense Contract Management Agency-Kuwait                            26
      Provost Marshal Office, Area Support Group-Kuwait                    28
Introduction
Objectives
This is the first in a series of audit reports on the Combat Support Services Contract-Kuwait
(CSSC-K) contract. We determined whether DOD properly managed and administered the
contract supporting base operations in Kuwait. Specifically, we determined whether the
contract management and administration personnel complied with Federal and DOD
policies. This report focuses on the management of the contractor’s security program and
contractor security clearances. For a discussion on the Scope and Methodology, please
see the Appendix.

We performed this audit pursuant to Public Law 110-181, “National Defense
Authorization Act for FY 2008,” section 842, “Investigation of Waste, Fraud, and Abuse
in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,” January 28,
2008. Section 842 requires

               …thorough audits to identify potential waste, fraud, and abuse in the
               performance of (1) Department of Defense contracts, subcontracts, and
               task and delivery orders for the logistical support of coalition forces in
               Iraq and Afghanistan; and (2) Federal agency contracts, subcontracts,
               and task and delivery orders for the performance of security and
               reconstruction functions in Iraq and Afghanistan.

Background
The CSSC-K contract (DASA02-99-C-1234) supports all base operations in Kuwait. The
CSSC-K contract is a cost-plus-award-fee contract that was awarded in 1999 to Combat
Support Associates (CSA). The contract term was for a base year and 9 option years.
The original contract award ceiling, including all option years, was for $503,808,483, but
due to the increase in military efforts in Southwest Asia, the value increased to more than
$3.3 billion as of May 2010, with 355 contract modifications. CSA is a joint venture
between AECOM, Aleut Corporation, and Research Analysis and Maintenance,
Incorporated.

The CSSC-K contract is ending, but the corrective actions identified in this report must
be established and implemented in follow-on contracts. The last option year for the
CSSC-K contract ended September 30, 2009; however, Rock Island Contracting Center
(RICC) officials extended the contract two additional times. Unless RICC officials
extend the contract for a third time, the CSSC-K contract will end September 30, 2010.
RICC officials stated that the CSSC-K contract will be separated into three follow-on
contracts: Kuwait Base Operation Security Support Services, Ammunition Supply Point,
and Supply Support Activity.

The Army Contracting Command-Kuwait managed the CSSC-K contract from its
inception until November 2007 when, due to fraud and quality issues in contracting
overseas, the Secretary of the Army transferred the management of the CSSC-K contract


                                                   1
to RICC. Little can be determined about the contract management from 1999 to 2007 as
documents were not well maintained before the contract transferred to RICC. RICC
officials encountered many issues when it took over management of the contract,
including undefinitized contract actions, a statement of work (SOW) that did not include
all contract requirements, and inadequate property inventories.

RICC officials delegated contract administration responsibilities to the Defense Contract
Management Agency (DCMA). DCMA has a presence in Kuwait and oversees the
day-to-day operations of the contract. DCMA officials coordinate with the procuring
contracting officer (PCO)1 at RICC to keep the PCO informed of the CSSC-K contract
operations.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses within the Rock Island Contracting Center and the Defense Contract
Management Agency for the management and oversight of the security program
supporting the CSSC-K contract. Implementing recommendations in the Finding will
improve CSA’s security program. We will provide a copy of the report to the Rock
Island Contracting Center and DCMA senior officials responsible for internal controls.




1
 While the FAR uses the term “contracting officer,” RICC uses the terms “procuring contracting officer”
and “administrative contracting officer” to cover the contracting officer functions. Therefore, in this series
of reports, we use the terms procuring contracting officer and administrative contracting officer and not
contracting officer.


                                                      2
Finding. Contractor Fails to Fully Implement
Security Clearance Requirements
CSSC-K contractor employees occupied sensitive positions such as force protection
officers, system administrators, and supply inspectors in Kuwait without obtaining
security clearances as required in the CSSC-K contract, DASA02-99-C-1234.
Specifically, CSA had:

        21 of 379 employees in sensitive positions who were not tracked by CSA’s
         security office;
        11 of 379 employees in sensitive positions who did not have a valid security
         clearance;
        at least 1 employee in a sensitive position that CSA officials classified as
         nonsensitive; and
        incomplete information in 41 of 49 security files reviewed.

Additionally, CSA officials allowed 20 employees to remain in sensitive positions
without the required security clearance after its internal quality assurance office and
DCMA officials informed CSA officials that they were in violation of the contract.
Further, the Army and PCO did not ensure that 36 contractor employees who had no
record of a security clearance, no valid security clearance, or no security file, had the
common access cards (CACs)2 required for base access and that those CACs had the
proper restrictions to prohibit contractor access to restricted areas or systems. This
occurred because CSA officials did not identify and track all sensitive positions or obtain
the required security clearances. Additionally, DCMA officials did not provide oversight
of the contractor’s security program in accordance with the contract or the Theater
Quality Plan. If DCMA and contractor officials do not ensure that all employees have the
required security clearances and maintain proper security information, they jeopardize the
military mission and threaten the safety and security of the military, civilian, and
contractor personnel in Kuwait. This issue is particularly timely and relevant in
identifying security concerns that the PCO must ensure are correctly implemented in the
new Kuwait-Base Operation Security Support Services, Ammunition Supply Point, and
Supply Support Activity contracts.

DOD Personnel Security Program
DOD Directive 5200.2, “DOD Personnel Security Program,” April 9, 1999, requires that
access to classified information or assignment to sensitive duties must be granted only to
United States citizens with a completed investigation. The background investigation is
required to show that contractor employees are reliable and trustworthy and that there is
no reason to doubt their ability to protect classified information or their allegiance to the
United States. According to DOD 5200.2-R, “Personnel Security Program,” updated


2
  A CAC is an identification card that used to gain access to DOD resources, installations, and sensitive
information.


                                                      3
February 23, 1996, sensitive positions are those civilian positions within DOD that
include duties of a sensitive nature and access to classified information where the
misconduct of personnel in that position could result in an unacceptable impact on
national security.

DOD 5200.2-R and Army Regulation (AR) 380-67, “Personnel Security Program,”
September 9, 1988, further state that contractor personnel who are employed by DOD
may be considered for access to classified information only when such access is required
in connection with official duties. AR 380-67 states that only heads of DOD
Components for critical-sensitive positions and organizational commanders for
noncritical-sensitive positions can designate a position as sensitive.

Contractor Positions Lack Security Clearances
CSSC-K contractors occupied sensitive positions; however, the PCO did not ensure that
all sensitive positions were designated by the proper officials as outlined in AR 380-67 or
that CSA officials provided justification for which positions they claimed required a
security clearance. The contractor is responsible for staffing sensitive positions with
employees who have security clearances, tracking security clearances, and maintaining
records. The SOW, as a part of the contract, required the contractor to maintain security
clearances for employees involved in inspections, repairs, or maintenance for classified
equipment or parts; who handle classified information in any format; or who have access
to restricted areas. The SOW further required CSA officials to provide the Army with a
list of contractor employees who required security clearances. The SOW required the
contractor to update the list and provide it to the Army as changes occurred. However,
while the contract required CSA officials to create and maintain a list of contractor
employees who require a security clearance, RICC and DCMA officials failed to provide
oversight and validate whether the decisions made by the contractor for these positions
were in accordance with the SOW.

Based on discussions with CSA officials, they did not think the Army clearly defined all
requirements in the SOW. According to CSA’s human resources information system
analyst, the Army did not clearly define or designate all sensitive positions; therefore,
CSA officials relied on their own department managers to determine which positions
required a security clearance. CSA’s facility security branch manager stated her office
tracked all employees that officials designated as requiring a clearance through CSA’s
security clearance access roster (SCAR). CSA’s quality assurance manager stated that
CSA’s human resources office maintained a list of all positions that required a security
clearance and the individuals in each position. According to a CSA official, the human
resources list populated the SCAR through an electronic transfer from CSA’s human
resources system. However, the facility security branch manager stated that no one
verified that all sensitive positions were captured on the human resources list or even that
the human resources list matched the SCAR since it was automatically populated.
Additionally, since RICC and DCMA officials did not validate CSA’s list of sensitive
positions, they do not know whether the SCAR or human resources list was all inclusive.
Further, CSA officials did not request that the PCO clarify which positions required a



                                             4
security clearance even though they believed the PCO did not define all sensitive
positions. As a result, CSA officials did not comply with the contract requirements.

SOW Security Clearance Requirements Disregarded
CSA’s security program officials did not obtain security clearances, as required in the
SOW, for all employees in sensitive positions. We reviewed CSA’s list of
379 employees working in sensitive positions and identified 21 contractor employees
who were not tracked by CSA’s security office and 11 contractor employees who did not
have a valid security clearance. Contractor employees working in a position that require
a security clearance typically earn a higher salary than those in positions that do not
require clearances. Therefore, CSA officials may have billed the Army based on rates
that were commensurate with employees occupying sensitive positions who should have
possessed a clearance when, in fact, these employees did not possess a clearance.

Failure to Track Security Clearances
We identified 21 contractor employees in sensitive positions who were not tracked by the
contractor’s security office. We compared the SCAR to the human resources list of
379 employees working in sensitive positions who required a security clearance to ensure
all employees were on the SCAR. Twenty-one of the 379 employees on the human
resources list were not on the SCAR. The facility security branch manager told us that
20 of the 21 employees identified did not yet occupy the positions and that is why those
individuals were not on the SCAR. However, the CSA human resources systems
manager stated that the facility security branch manager was incorrect and that if the
name was on the human resources list then the individual was already working in that
position. Therefore, CSA employees were working in positions that required a clearance
but CSA officials did not track whether the employees had a security clearance. Some of
the positions the 21 employees occupied included Theater Redistribution Center
inspectors and supply technicians, both of which handled sensitive materials, as well as a
force protection officer responsible for security of the military base. Therefore, the 21
contractor employees had access to sensitive materials. The PCO should require CSA
officials to validate whether these contractor employees have the required clearance.
Those that are lacking the clearance should be removed from their positions.

Questionable Security Clearance Status
We identified 11 employees who did not have a clearance because their clearances were
either in a “hold” or “interim declined” status. Six of the 11 employees were in sensitive
positions even though their clearances were on hold. According to CSA’s facility
security branch manager, the hold designation meant that the individual’s security
clearance had not yet been approved. These employees occupied sensitive positions such
as a Theater Redistribution Center inspector, a help desk technician, and force protection
officers. The remaining five employees occupied sensitive positions with an interim
declined clearance. According to CSA’s facility security branch manager, the interim
declined status indicated that the employee’s clearance was declined during his or her
interim clearance review but had not yet received a determination on the full security
clearance. Employees working in an interim declined status included a Theater
Redistribution Center inspector, a supply technician, a systems administrator, a supply


                                            5
supervisor, and a security supervisor. The systems administrator accessed systems with
sensitive information and may have had responsibilities such as
installation/configuration, operations and maintenance of systems hardware, software,
and related infra-structure. These 11 contractor employees were working in sensitive
positions without a valid security clearance, clearly a security violation. The PCO should
direct CSA officials to immediately remove these 11 contractor employees from their
positions until they obtain the required security clearance.

Positions Required Clearances Not Tracked
As already noted in this report, sensitive positions should be identified in the contract,
CSA’s human resources list, and the SCAR, and employees in these positions must have
security clearances. However, no one verified whether CSA officials tracked all
positions that require a clearance. Further, CSA’s security manager informed us that
when CSA employees identified an employee working in a sensitive position without a
clearance, CSA officials created a “mirror” position for that person until they obtained
their clearance. The CSA security manager stated a mirror position was the exact same
position, only CSA officials did not allow that person access to sensitive information.
However, CSA’s security manager stated that CSA officials relied on the individual’s
department manager to ensure that person did not have access to sensitive information
but no one verified whether this was being done. Additionally, since the person was
designated as occupying a position without a security clearance, he or she would not
appear on the SCAR for additional monitoring. While DCMA officials verified whether
contractor employees had necessary clearances by reviewing the SCAR, it had no basis to
determine if the SCAR included all required positions.

We identified an individual working in a sensitive position that was not identified on the
human resources list of sensitive positions, but the SOW required the person occupying
the position to have a clearance. This individual was a supervisor in the Joint Military
Mail Terminal with oversight of employees who scan all packages sent to the military
base, and must report and dispose of any items identified that are not allowed. The
employee also had access to sensitive packages that were locked in a secure room. The
SOW required any person handling registered mail to have a security clearance. We
asked CSA’s human resources information systems analyst why this position was not on
the list and he replied that the position could have been labeled incorrectly, but he
acknowledged that it should have been on the list.

DCMA officials and CSA officials informed us that they had identified issues with
employees stealing items, such as alcohol, drugs, and weapons from packages while
working in the Joint Military Mail Terminal. Therefore, DCMA officials should have
reviewed the human resources list of sensitive positions for the Joint Military Mail
Terminal supervisor position. The supervisor did have a security clearance; however, this
individual was not on the SCAR because his position number was incorrectly labeled by
human resources employees. Therefore, CSA’s security office was not tracking security
information for this individual. While we found only one instance where the position
was labeled incorrectly, there could be others since the PCO and DCMA officials did not
validate whether CSA officials tracked all positions that required a clearance. The PCO


                                             6
should conduct a 100 percent review of all positions and designate each position either
sensitive or nonsensitive and the security clearance level, if required. The PCO should
further require DCMA officials to periodically validate whether CSA’s list of contractor
employees in sensitive positions is all inclusive.

Contractor Security Files Missing Documents
The CSSC-K contract SOW required that CSA officials implement and maintain a
security program. The SOW stated that the security program must include obtaining
security clearances for contractors. The contract further required CSA officials to
develop standard operating procedures for its security program.

To obtain a security clearance, DOD 5200.2-R requires the individual to validate that he
or she is a U.S. citizen. Additionally, DOD 5200.2-R requires that all persons cleared for
access to classified information or assigned to duties requiring a clearance must be given
an initial security briefing and sign an SF 312, “Classified Information Nondisclosure
Agreement” (SF 312). Further, CSA’s standard operating procedures required that every
personnel file include the SOW section that justifies that the position requires a security
clearance, the employee’s position description, a copy of a passport, signed nondisclosure
agreements, overseas operational security briefing memoranda, and a joint personnel
adjudication system printout to show the individual’s clearance level. However, CSA’s
security files did not include all required information, and CSA officials did not maintain
files for all contractor employees required to have a security clearance.

We reviewed 49 of 379 contractor employee security files for the required documents
listed above and found that only 8 of the 49 files had all of the documents required by
DOD 5200.2-R and by the contractor’s standard operating procedures. The other 41 of
49 files did not include 1 or more of the required documents. Specifically, of the 49
employee files reviewed:

      8 did not include a copy of a passport,
      16 did not include a signed copy of the SF 312,
      13 did not include a signed copy of the overseas operations security briefing
       memorandum,
      30 did not include the applicable SOW section,
      20 did not include the position description justifying the need for the security
       clearance, and
      6 did not include proof of their clearance level (these were the same 6 employees
       with a clearance in a hold status).

Four of the eight employees with no evidence of a passport worked in the security
services department. Without a passport, there was no evidence that the employees were
U.S. citizens as required by DOD 5200.2-R. Additionally, unless CSA officials obtain a
signed SF 312 and proof of the security briefing for the employees without this
information, the PCO should take actions to have their clearances revoked per
DOD 5200.2-R and direct CSA officials to remove them from their positions. Further,
because there were files without an applicable SOW section and position description, we


                                            7
could not validate that CSA officials justified whether access to sensitive information was
required in connection with official duties, as stated in DOD 5200.2-R.

CSA’s security branch manager could not provide 4 of the 49 requested employee files
and could not verify whether those four contractors had the required clearance for their
position. The four employees were the chief operating officer, a range safety technician,
and two force protection officers, all of whom had access to sensitive information. While
CSA officials failed to meet the SOW requirements, the PCO and DCMA officials were
responsible for taking appropriate action against CSA officials. The PCO should direct
CSA officials to reconstitute the employee personnel files and validate that each
employee had a security clearance. If CSA officials find they do not have a security
clearance, they should terminate the employee immediately. Further, those terminated
employees must be required to turn over their CAC, and the PCO should recoup the
employee salaries since they were not fulfilling SOW requirements.

DCMA Oversight Failed
DCMA-Kuwait officials are responsible for monitoring the contract to ensure that
services performed by the contractor are in compliance with the contract. DCMA-
Kuwait officials failed to provide oversight of the contractor security program to ensure it
complied with contract requirements outlined in the SOW. Specifically, DCMA officials
did not review CSA’s maintenance of the security files to verify that contractor
employees CSA officials claimed had a security clearance actually had the clearance.
The DCMA quality assurance representative (QAR) responsible for oversight of security
informed us that DCMA officials ensured that the contractor positions that require a
clearance were occupied by contractor employees with clearances. The security QAR
stated that he reviewed the SCAR, verified a sample of position descriptions, and
reviewed information in the Joint Personnel Adjudication System for a sample of
employees to validate that the information in SCAR was correct. However, the QAR
could not provide documentation to support his statements that the reviews were
conducted. The SCAR did not include all contractor employees in sensitive positions and
all contractor employees did not have the required security clearances. We asked the
QAR why he did not review the supporting employee files to verify contractor security
clearances, and he stated that the contract did not direct the contractor to maintain the
security files. Therefore, according to the QAR, since it is not required in the contract, it
is not one of DCMA’s delegated responsibilities. However, the contract’s SOW requires
that the contractor obtain and maintain security clearances. DOD 5200.2-R requires the
supporting documentation for employees who have a security clearance; therefore, the
supporting documents in the security files are required for obtaining a security clearance
and should be reviewed by DCMA officials. DCMA officials should review CSA’s list
of contractor positions to verify that the list is all-inclusive and compare that list to the
SCAR to validate that CSA officials track all employees who require a security clearance.
CSA employees are required by the contract to obtain a security clearance; therefore, the
PCO should ensure that DCMA officials review the supporting files to verify that all
contractors in sensitive positions have the required clearances. CSA placed their
employees in sensitive positions, such as Theater Redistribution Center inspector, supply
technician or supply supervisor without the required security clearances, clearly a


                                             8
security violation. Until DCMA officials review all CSA employees and verify whether
they have the security clearance required for each position, the PCO should suspend
employees that do not have the required security clearances commensurate with their
position. If DCMA officials choose to verify contractor clearance information in the
Joint Personnel Adjudication System instead of looking at the files, DCMA officials must
document these reviews.

Contractor’s Noncompliance With the SOW
CSA officials continued to staff 20 employees without clearances in sensitive positions
after being notified by its quality assurance office and DCMA officials of their non-
compliance with the SOW requirements. According to FAR Subpart 9.406,
“Limitations,” when contractors are in willful violation of their contract, the PCO can
pursue debarment of the contractor. There was confusion on this matter because DCMA
officials did not issue a corrective action request (CAR) as required. DCMA officials did
not issue a CAR because they relied on CSA’s quality assurance officials to issue their
own internal CAR on the issue. However, CSA officials caused further confusion when
they developed a corrective action plan for their internal CAR that was tied to an
unrelated DCMA CAR. Subsequently, DCMA officials closed the CAR and stated CSA
officials implemented all corrections; however, CSA officials did not. Therefore, not
only did CSA officials violate the contract because they did not comply with the SOW,
but DCMA officials did not conduct oversight of this issue in accordance with its Theater
Quality Plan.

Oversight Lacking on Security Programs
In May 2009, CSA officials issued an internal CAR stating that CSA officials failed to
comply with facility and physical security requirements stated in the SOW. CSA’s
quality assurance office attributed the noncompliance to a lack of oversight of the facility
and physical security program by CSA management. CSA’s quality assurance office
developed a corrective action plan to address the issue that included: reviewing the SOW
for positions that require security clearances to ensure the positions were properly
reflected in the human resources information system database, validating that those
employees had a security clearance, and verifying that no potential or current employee
was hired or reassigned to a position that required a security clearance unless he or she
had an approved security clearance or authorization. CSA officials closed its internal
CAR on October 5, 2009, after DCMA officials reported that CSA officials had
implemented all of the corrective actions. However, we found that the issues were not
corrected.

While CSA officials admitted CSA did not comply with the SOW, the CSA quality
assurance manager stated that the 20 employees were awaiting a final determination from
the PCO on whether the positions required clearances. Despite notice from
DCMA-Kuwait officials and the CSA internal CAR, CSA officials continued to staff
sensitive positions with employees without security clearances. CSA officials violated
the contract requirements and the PCO should pursue debarment of the contractor in
accordance with FAR Subpart 9.406. While this report addresses areas where CSA



                                             9
officials did not comply with the contract on security issues, the next report in this series
will address CSA compliance with other contract requirements.

DCMA Missed Opportunity to Enforce Contract
DCMA officials are required to issue a CAR in accordance with their Theater Quality
Plan when they identify that contractor performance is not in compliance with the
contract. The DCMA CAR must outline the issues identified by the QAR and require the
contractor to develop a corrective action plan. The corrective action plan must outline
how the contractor will fix the issue and the projected milestones.

One of the DCMA QARs stated that DCMA officials identified issues with CSA officials
not knowing which positions required a security clearance. The QAR provided DCMA
audit reports showing that, in May 2009, DCMA officials identified 55 contractor
employees working in sensitive positions without a security clearance which, according
to the reports, had been an issue since February 2008. The CSA quality assurance
manager stated that CSA officials were unaware these were sensitive positions because
the contract did not define them as positions that required a security clearance; however,
CSA officials admitted that they did not comply with the SOW requirements. The QAR
noted that several contractor employees were removed from their positions or moved into
other positions until they acquired security clearances. The DCMA audit reports showed
that CSA officials implemented corrective actions on this issue; however, 20 contractor
employees still did not have clearances for their positions as of October 12, 2009.
According to the DCMA audit, these contractor employees worked in the ammunition
supply point, a restricted area. Further, the QAR informed us that DCMA officials
expected this to be resolved by the end of the year, and, as the contractor had operated
without the clearances for the past 10 years, that a few more weeks would not hurt. The
QAR stated that there would be a huge impact to the mission if the contractor employees
were removed from their positions.

While DCMA officials identified issues with security clearances that had gone
undetected for several years, per DCMA’s Theater Quality Plan, DCMA officials should
have issued a CAR in response to these findings. However, the DCMA QAR informed
us that a CAR was not issued for the security findings because the issue was identified in
a CSA corrective action plan. The QAR stated that the contractor’s corrective actions
were developed in response to its own internal reviews, but somehow got tied to a
DCMA level III CAR. DCMA officials closed the level III CAR in September 2009,
stating CSA officials completed all of the actions identified in its corrective action plan.
However, DCMA’s audit reports clearly showed that contractors without the required
security clearance were still an issue 1 month later in October 2009. Further, CSA
officials still had employees working without the required security clearance.

DCMA officials did not conduct oversight of this issue in accordance with its Theater
Quality Plan. Based on DCMA’s audit reports, DCMA repeatedly pointed out issues
with contractor employees not having the required security clearance; however, DCMA
officials did not hold CSA officials responsible or impose any penalties for not fully
addressing the issue. Although DCMA identified security issues, DCMA failed to issue a


                                             10
CAR to address these issues or to notify the contractor. Further, DCMA officials
reported that they verified the completion of CSA’s corrective actions related to the
security issue before the issue was resolved. Lastly, no one verified that these employees
were no longer working with sensitive information. The fact that there were still
contractors in sensitive positions without security clearances is not acceptable and poses a
security risk for military, civilian, and contractors in Kuwait. DCMA should assign a
subject matter expert who is proficient in installation security as the QAR because
security is a large part of the CSSC-K contract requirements.

Contractors Accessing Bases Without Common Access
Cards
In addition to having a security clearance, CSA contractor employees must also have a
CAC. DOD 5200.08-R “Physical Security Program,” April 9, 2007, incorporating
change 1, May 27, 2009 states that the CAC must be the principal identity credential for
supporting interoperable access to installations, facilities, buildings, and controlled
spaces. RICC officials stated that under the Defense Cooperation Agreement with the
Army of the State of Kuwait, installation access cards are used to access the military
bases. However, we reviewed the agreement and did not find an alternative identification
requirement. Therefore, the RICC officials should ensure that employees access the
bases as required by DOD regulations. We requested that the Defense Manpower Data
Center query the Defense Enrollment Eligibility and Reporting System3 for the
36 contractor employees who were identified as not having a clearance. Specifically, we
requested CAC information for the 21 contractor employees without a security clearance,
the 11 employees whose clearance was in a hold or interim declined status, and the 4
employees with missing security files. We could not review CACs for the 20 employees
known by the contractor and DCMA to occupy sensitive positions without security
clearances because neither DCMA nor CSA officials provided us with the names for
these employees, and they were not reflected on CSA’s list of employees in sensitive
positions or the SCAR. Based on the query of the 36 employees, 28 had a CAC, 5 did
not have a CAC, and 3 had an expired CAC.

Even though all employees with access to military bases are required to have a CAC, the
28 employees who had a CAC occupied sensitive positions without a security clearance.
These 28 employees occupied positions such as Theater Redistribution Center inspectors,
supply technicians, and systems administrators. If the employee CAC does not have the
proper restrictions, these employees could potentially gain access to restricted areas on
the military base or to information systems with sensitive information using their CACs
without the required security clearance. DCMA has noted in its audit reports that
contractor employees without the required security clearance have had access to
restricted areas, such as the ammunition supply point or theater storage area. These
improper accesses would compromise the physical and logical access controls of the



3
 The Defense Enrollment Eligibility and Reporting System is a central repository for information collected
on DOD personnel, including whether an individual has a CAC.


                                                    11
military base and information. Therefore, CSA officials should remove these employees
from their positions if they do not have a security clearance.

Four of the five employees with no CACs were working as force protection officers with
the remaining employee working as a supply technician. Of the five employees who did
not have a CAC, three employees had a clearance in a hold status, and two employees
had no evidence of a clearance. Force protection officers monitor employees coming
onto and leaving the military base and need base access to do their job. Not only did they
not have the CAC required for base access, they did not have the security clearance
required for their positions. While the SOW indicates that all force protection officers do
not require a security clearance, it states they must possess the security clearance equal to
the level of classification they safeguard. Therefore, some force protection officers must
have a security clearance. While these individuals were included on CSA’s human
resource list as requiring a security clearance, they did not have the required clearances,
which is a security violation. Force protection officers must have a valid security
clearance and CAC since they are the first defense for the military base personnel
security and safety.

The three employees with an expired CAC had no evidence of a security clearance. These
three employees were working as supply technicians, which CSA officials identified as a
sensitive position. As with the force protection officers, these employees require access
to the military bases. Not only did these employees not have the required security
clearance to work in their positions, they did not have a valid CAC required to gain
access to the military base. The PCO should direct CSA officials to remove these
employees from their positions.

We provided the 36 employee names (21 contractor employees without clearances,
11 contractor employees without valid clearances, and 4 contractor employees with
missing security clearance files) to both DCMA and RICC officials and informed them
that corrective action must be taken to remove these individuals from their sensitive
positions. Employees without valid security clearances may have access to sensitive or
classified information that could cause grave damage to national security if not protected.
Additionally, the integrity of military base security is compromised if these employees
gained access to the military base without a CAC. Further, since the contractor
employees identified were working in positions without the required security clearances,
the PCO should conduct a review of the labor rates paid to those employees to verify that
CSA officials did not bill the Army based on work they were not qualified to do because
of a lack of security clearance.

Conclusion
CSA officials did not obtain and maintain contractor security clearances in accordance
with the contract and did not track all sensitive positions. As a result, security violations
occurred, CSA officials were in violation of the contract, and appropriate remedies
should be considered. Further, DCMA did not conduct adequate oversight of CSA’s
security program, and the Army did not ensure that all contractor employees had a CAC
required for access to the military bases. Therefore, CSSC-K contractor employees


                                             12
occupied sensitive positions in Kuwait without appropriate security clearances and
CACs, which was a security violation. If the Army does not ensure that all contractor
employees have the required security clearances and maintain proper security
information, these employees pose a threat to the military, civilian, and U.S. contractor
personnel in Kuwait, as well as to national security. These issues are timely and relevant
in identifying security concerns that the PCO must ensure are correctly implemented in
the new Kuwait Base Operation Security Support Services, Ammunition Supply Point,
and Supply Support Activity contracts.

Management Comments on the Finding and Our
Response
See Appendix B for a summary of unsolicited management comments from the Provost
Marshal Office, Area Support Group-Kuwait, on the finding and our response.

Recommendations, Management Comments, and Our
Response
The Executive Director, U.S. Army Contracting Command, endorsed the comments
provided by the Acting Executive Director, Rock Island Contracting Center.

1. We recommend that the Rock Island Contracting Center procuring contracting
officer:

       a. Conduct a 100-percent review of all positions related to work on the
Combat Support Services Contract-Kuwait contract and document whether a
security clearance is required in accordance with DOD 5200.2-R, “Personnel
Security Program,” updated February 23, 1996, and Army Regulation 380-67,
“Personnel Security Program,” September 9, 1988.

Rock Island Contracting Center
The Acting Executive Director, Rock Island Contracting Center, agreed. The Acting
Executive Director stated that he will request Defense Contract Management Agency
officials to initiate a 100-percent review of all positions with an estimated completion
date of September 10, 2010. The Defense Contract Management Agency personnel will
coordinate their review with the Army Support Group Provost Marshal’s office and other
security matter experts.

Our Response
The Acting Executive Director, Rock Island Contracting Center, comments are
responsive, and no further comments are required.

      b. Require that Combat Support Associates, with oversight from the Defense
Contract Management Agency-Kuwait, conduct a review to validate that all
contractor employees working in sensitive positions on the Combat Support Services




                                            13
Contract-Kuwait contract have a valid security clearance, and if not, immediately
remove that individual from his or her position.

Rock Island Contracting Center
The Acting Executive Director, Rock Island Contracting Center, agreed. The Acting
Executive Director stated that he will request Defense Contract Management Agency
officials to validate that all contractor employees working in sensitive positions have
valid security clearances and will direct the contractor to remove any employee without a
clearance from their position. The Acting Executive Director provided an estimated
completion date of September 30, 2010.

Our Response
The Acting Executive Director, Rock Island Contracting Center, comments are
responsive, and no further comments are required.

       c. Conduct a review of the money paid to Combat Support Associates on the
Combat Support Services Contract-Kuwait contract for employees that did not have
security clearances and take the proper contractual remedies to recoup any money
paid for employees who should have possessed a clearance but did not.

Rock Island Contracting Center
The Acting Executive Director, Rock Island Contracting Center, agreed and stated that
Rock Island Contracting Center officials would consider if recoupment is appropriate
based on the reviews requested in Recommendations 1.a and 1.b.

Our Response
The Rock Island Contracting Center, Acting Executive Director, comments are
responsive, and no further comments are required.

        d. Require Combat Support Associates to conduct reviews to validate that
all of the sensitive positions on the Combat Support Services Contract-Kuwait
contract are included in both the human resources lists and the security clearance
access roster.

Rock Island Contracting Center
The Acting Executive Director, Rock Island Contracting Center, agreed. He stated that
Rock Island Contracting Center officials, with Defense Contract Management Agency
officials, will direct the contractor to conduct a review and validate sensitive positions to
be captured on both the human resources lists and security clearance roster. The
estimated completion date is September 30, 2010.

Our Response
The Acting Executive Director, Rock Island Contracting Center, comments are
responsive, and no further comments are required.



                                             14
       e. Prohibit Combat Support Associates from creating “mirror” positions.

Rock Island Contracting Center
The Acting Executive Director, Rock Island Contracting Center, agreed. However, the
Acting Executive Director stated that Rock Island Contracting Center officials have no
evidence to prove that the contractor is creating mirror positions. The Acting Director
stated that the Rick Island Contracting Center officials, along with the Defense Contract
Management Agency officials, will direct the contractor to refrain from any practice of
creating mirror positions.

Our Response
The Acting Executive Director, Rock Island Contracting Center, comments are
responsive, and no further comments are required.

       f. Pursue debarment against the contractor in accordance with Federal
Acquisition Regulation Subpart 9.406, “Limitations,” for not complying with the
terms of the Combat Support Services Contract-Kuwait contract.

Rock Island Contracting Center
The Acting Executive Director, Rock Island Contracting Center, agreed and stated that
issues identified during the requested reviews will be addressed and, if improper practices
are identified, then Rock Island Contracting Command officials will take appropriate
action.

Our Response
The Acting Executive Director, Rock Island Contracting Center, comments are
responsive, and no further comments are required.

       g. Coordinate with the Provost Marshall’s office to conduct a review to
determine whether all Combat Support Associate employees have a common access
card as required by DOD 5200.08-R, “Physical Security Program,” April 9, 2007,
incorporating change 1, May 27, 2009. Remove Combat Support Associate
employees without a current common access card from their position until they
obtain a current common access card. Further, require employees who were
removed from their positions because they did not have a clearance to turn in their
common access cards.

Rock Island Contracting Center
The Acting Executive Director, Rock Island Contracting Center, agreed and stated that
Rock Island Contracting Center officials will coordinate with the Army Support
Group-Kuwait Provost Marshal’s Office to conduct a review of contractor employee
common access cards. The Acting Executive Director provided an estimated completion
date of September 30, 2010.




                                            15
Our Response
The Rock Island Contracting Center, Acting Executive Director, comments are
responsive, and no further comments are required.

2. We recommend that the Commander, Defense Contract Management
Agency-Kuwait:

        a. Require quality assurance representatives to conduct quarterly reviews of
contractor security files or the Joint Personnel Adjudication System to validate that
all contractor employees in sensitive positions have the required security clearance
and supporting documents as required in the Combat Support Services
Contract-Kuwait contract and DOD 5200.2-R and document the reviews.

Defense Contract Management Agency-Kuwait
The Commander, Defense Contract Management Agency-Kuwait, agreed. The
Commander stated that although the Defense Contract Management Agency does not
have the personnel to perform quarterly security file reviews, he stated that Defense
Contract Management Agency-Kuwait officials would coordinate and document
quarterly reviews of the Joint Personnel Adjudication System.

Our Response
The Commander, Defense Contract Management Agency-Kuwait, comments are
responsive. The quarterly reviews of the Joint Personnel Adjudication System in
conjunction with the 100-percent review of all positions identified in Recommenda-
tion 1.a should validate and correct errors found in security requirements. No further
comments are required.

       b. Validate that quality assurance representatives issue and appropriately
resolve corrective action requests in accordance with the Defense Contract
Management Agency’s Theater Quality Plan.

Defense Contract Management Agency-Kuwait
The Commander, Defense Contract Management Agency-Kuwait, agreed. The
Commander stated that the Defense Contract Management Agency will issue corrective
actions in accordance with its Theater Quality Plan, when required. However, the
Commander stated that the Defense Contract Management Agency-Kuwait will allow the
contractor to self-monitor low-risk areas and internally identified corrective actions so as
not to deter the contractor from self-reporting. The Commander agreed that a corrective
action request should have been issued for the security clearances due to the risk of non-
compliance.

Our Response
The Commander, Defense Contract Management Agency-Kuwait, comments are
responsive, and no further comments are required.



                                            16
       c. Assign a subject matter expert proficient in installation security as the
Quality Assurance Representative for the surveillance of the security program.

Defense Contract Management Agency-Kuwait
The Commander, Defense Contract Management Agency-Kuwait, agreed. The
Commander stated that the Defense Contract Management Agency-Kuwait did not have
personnel with specific installation security experience so he will request that a subject
matter expert be assigned to help the Defense Contract Management Agency. However,
the Commander stated that there was no guarantee that Defense Contract Management
Agency-Kuwait will receive the requested subject matter expert.

Our Response
The Commander, Defense Contract Management Agency-Kuwait, comments are partially
responsive. The Commander should provide a plan of action to mitigate the risk if the
Defense Contract Management Agency-Kuwait does not get a person with installation
security experience. The Commander should provide his plan by October 22, 2010.




                                            17
Appendix A. Scope and Methodology
We conducted this performance audit from August 2009 through June 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This is one in a series of audit reports on the management and administration of the
CSSC-K contract (DASA02-99-C-1234). To determine whether the contractor properly
managed and administered the CSSC-K contract, we interviewed officials involved in the
management and oversight of the contract, reviewed the contract and supporting files,
and reviewed documents as described below. Specifically, we visited the following
locations:

      Rock Island Contracting Center, Rock Island, Illinois;
      DCMA International, Alexandria, Virginia;
      DCMA-Houston, Houston, Texas;
      DCMA-Kuwait, Camp Arifjan, Kuwait; and
      CSA Kuwait offices, Camp Arifjan, Kuwait.

We focused this report on CSA’s security program and the management and oversight of
contractor employees with security clearances. We reviewed Federal Acquisition
Regulations, DOD Directive 5200.2, DOD 5200.2-R, AR 380-67, and the SOW to
determine the requirements for security programs and for obtaining contractor security
clearances. We also reviewed the contract and contract modifications, to include the
SOW, as of December 2009, to determine whether the PCO identified which positions
were sensitive positions and required security clearances.

We reviewed CSA’s human resources list of all 379 contractor employees with security
clearances, as of November 2009, in sensitive positions and CSA’s November 2009
SCAR to determine whether all contractor employees in sensitive positions had the
required security clearance. We also requested that the Defense Manpower Data Center
query the Defense Enrollment Eligibility and Reporting System for the contractor
employees without a security clearance, the employees whose clearance was in a hold or
interim declined status, and employees without a security file to determine whether all
contractors had a CAC as required in DOD 5200.08-R.

We used a judgmental sample to select names from CSA’s SCAR and reviewed the
supporting security file for those individuals to determine whether CSA officials
maintained the documents required in DOD 5200.2-R and CSA’s standard operating
procedures for all employees with a security clearance. We judgmentally selected every
tenth employee starting with the fourth employee name from the SCAR containing
379 employees. We also selected employees from the SCAR who had a clearance in a
hold or interim declined status. Our sample resulted in 49 contractor employees. We
                                           18
reviewed each file for the documents required in DOD 5200.2-R and CSA’s standard
operating procedures. We also interviewed a DCMA QAR to determine whether DCMA
conducted oversight of contractors with security clearances.

We reviewed DCMA’s monthly audit reports from May 2009 to October 2009 for QAR
audits for those that related specifically to employees without security clearances. We
followed up with the QAR on specific reports and obtained the related CAR, CSA’s
corrective action plan, and CSA’s internal CAR. Then we reviewed the documents to
determine whether CSA and DCMA officials took the appropriate actions to correct the
issue of employees in sensitive positions without security clearances.

Lastly, we obtained the names of contractor employees who require security clearances
during a tour of CSSC-K contract operations in Kuwait. We reviewed CSA’s human
resources list of employees in sensitive positions to determine whether all employees
were on the list. We also interviewed DCMA QARs to determine whether DCMA
reported any security issues identified as required in its Theater Quality Plan.

Use of Computer-Processed Data
We relied on computer-processed data from the Defense Enrollment Eligibility Reporting
System to determine whether a sample of contractor employees had a CAC. We did not
assess the reliability of the database because it would not affect materiality of our
findings or recommendations. Our objective was to determine whether the contractors
had a security clearance, not to determine the reliability of the Defense Enrollment
Eligibility Reporting System outputs used in the process. We did not perform any
detailed reliability testing of the Defense Enrollment Eligibility Reporting System data.
Regardless of whether the contractors had a CAC, we would still make the same
recommendations to remove all contractors without a security clearance.

Prior Coverage
During the last 5 years, the Army Audit Agency issued one report discussing the CSSC-K
contract. Unrestricted Army reports can be accessed from .mil domains over the Internet
at https://www.aaa.army.mil/.

Army
Army Audit Report No. A-2009-0132-ALL, “Contracting Operations: U.S. Army
Contracting Command Southwest Asia – Kuwait,” September 26, 2009




                                           19
Appendix B. Management Comments and
Our Response
Provost Marshal Office Comments
Although not required to comment, the Provost Marshal, Area Support Group-Kuwait,
provided comments that were included with those from DCMA-Kuwait. The Provost
Marshal commented that force protection officers are not required to have a security
clearance or CAC. The Provost Marshal stated that, in accordance with AR 380-67,
“Personnel Security Program,” September 9, 1988, contractors assigned to military police
or provost marshal duties are noncritical sensitive positions. He stated that this applied to
law enforcement officials and not force protection officers. The Provost Marshal also
stated that force protection officers are required only to have a favorable National
Agency Check, not a security clearance in accordance with AR 380-67.

The Provost Marshal further stated that Area Support Group-Kuwait installations are not
federally controlled facilities, but are provided by the Kuwaiti Government under the
Defense Cooperation Agreement. The Provost Marshal stated that, in accordance with
the agreement, the installations comply with the use of installation access cards, which is
composed of biometric screening, passports, visas, and other requirements to work in
Kuwait. He further stated that the majority of the contracted workforce in Kuwait are
third-country nationals who cannot get a CAC.

In addition, the Provost Marshal stated that the DOD IG report statements conflicts with
AR 380-67 requirements because not all force protection officers are required to have a
clearance. He further stated that a security clearance is not required for a contractor to
obtain a CAC nor does the CAC ensure that proper security requirements are established
in accordance with the guidelines.

Our Response
As stated on page 12, the SOW for the CSSC-K contract requires force protection
officers to have a security clearance equal to the level of classification they safeguard.
The SOW for the CSSC-K contract also requires the contractor to maintain a list of the
personnel who require a security clearance, and the contractor is bound to those contract
terms. The force protection officers referred to in this report were on the contractor’s list
of personnel required to have a security clearance, but they did not have the clearances.

As stated on page 11, we reviewed the Defense Cooperation Agreement provided to us,
as did the DOD IG Legal Counsel, and we did not find a requirement for installation
access cards. The agreement only required compliance with DOD guidelines. DOD
5200.08-R, “Physical Security Program,” states that the CAC must be the principal
identity credential for supporting interoperable access to installations, facilities,
buildings, and controlled spaces. It does not specify federally controlled installations.
Further, our report did not state that a security clearance is required to have a CAC; we


                                             20
stated that personnel with a CAC who do not have a security clearance could gain access
to sensitive information by using their CAC if the proper controls were not implemented.




                                           21
Rock Island Contracting Center Comments




                  Click to add JPEG file




                                 22
Click to add JPEG file




               23
Click to add JPEG file




               24
Click to add JPEG file




               25
Defense Contract Management Agency Comments




                 Click to add JPEG file




                                26
Click to add JPEG file




               27
Provost Marshal Office, Area Support Group-Kuwait




                   Click to add JPEG file




                                  28
Click to add JPEG file




               29
